DoD Inspector General
Report                                                                                   MARO'm '
Report No. D-2008-060
 (Project No. D2006-DOOOLQ-0254.000)

SUBJECT:          Audit of Potable and Nonpotable Water in Iraq

Objective. The overall objective of the audit was to detelmine whether the processes for providing
potable and nonpotable' water to U.S. forces in Iraq were adequate. We conducted the audit at the
request of Senator Byron L. Dorgan, Chainnan of the Democratic Policy COlnmittee. Specifically,
Senator Dorgan requested that we review an alleged failure of the contractor, Kellogg, Brown, and
Root (KBR), to provide safe nonpotable water to U.S. forces in Iraq. Because the processes for
providing potable and nonpotable water overlapped, we expanded the audit scope to include the
processes for both.

Scope and Methodology. We perfonned audit work in Ir~q and the continental United States from
September 2006 through November 2007 in accordance with generally accepted government aUQiting-
standards. The scope of the aU,dit covered water operations in Iraq dui-ing Operation Iraqi Freedom, -,
from January 1, 2004, through December. 3t, 2006: According to docum~ntation provided by KBR '
and the Multinational Corps-Iraq (MNC-I) Preventive Medicine office, as of Febnlary 25,2007; there
were 59 U.S. water production (treatment) sites in Iraq composed of37 sites operated by contractors:'
and 22 sites operated by the U.S. military. We judgillentally selected and visited six sites; four
operated by U.S. contractors and two operated by the U.S. military. We reviewed water production
operations and associated records at Camp Ar Ramadi, Camp Ali, Camp Q-West) Logistical SUPPoli
Area (LSA) Anaconda, Catnp Liberty, and Camp Victory. The six sites provided water for about
56,000 U.S. forces. The selected locations were all under the comlnand and control of the
Multinational Force-Iraq (MNF-I) with operational control provided by MNC-I. We reviewed the
processes for water production, distribution, storage, and oversight by examining production and
oversight records; researching military medical databases;2 reviewing government oversight of
contractor operations; and researching operational requirelnents for Inilitaly field water. We
interviewed military and contractor personnel responsible for water operations at the operational,
supervisory, and managerial levels. Personnel interviewed included those deployed during the audit
fieldwork as well as previously deployed persolmel. After cOlnpleting the audit fieldwork, we issued a
response letter to Senator Dorgan on May 23, 2007, with a summary of the alleged failure.
Subsequently, the Majority Counsel for the Senate Anned Services C0111mittee requested we conduct
additional interviews of Military Service Inelnbers who served in the area of Canlp At Rmnadi during
the alleged failure, October 2004 through May 2005 (see report section titled "Survey of U.S. Forces at
At Ramadi").


I Potable water is safe to drink and does not contain harmful chemical, microbiological, radiological, or other contaminants.
Nonpotable water is unsafe for human ingestion, but used for other purposes including laundry and personal hygiene.
2 Medical databases researched included those used by the U.S. Army Center for Health Promotion and Preventive
Medicine (USACHPPM) Air Force Instihlte of Operational Health (AFIOH) and Joint Medical Work Station (JMEWS).
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


Results in Brief and Effect
We identified deficiencies in water operations at three contractor-operated facilities and two
military-operated facilities, and in the oversight of those operations. Contractors provided
bottled drinking water and bulk water 3 to U.S. forces. Military water purification units only
provided bulk water.

From March 2004 to February 2006, the quality of water provided by contractors, through
treatment or distribution at three of the sites we visited, was not maintained in accordance with
field water sanitary standards as specified in the Department of Army, Technical Bulletin
(Medical) 577, “Sanitary Control and Surveillance of Field Water Supplies,” March 1986, with
revision December 15, 2005 (TB MED 577). 4 Although required, KBR did not maintain the
quality of the water it distributed to point-of-use storage containers at Camp Ar Ramadi, Camp
Q-West, and Camp Victory. Additionally, at Camp Q-West, KBR improperly provided
chlorinated wastewater from its Reverse Osmosis Water Purification Unit (ROWPU) to personal
hygiene facilities.

During the time we reviewed water operations, from January 2004 through December 2006, the
military processes for providing potable and nonpotable water did not always meet field water
sanitary control and surveillance requirements as required by TB MED 577. Specifically,
operators of the military water production sites we visited were not performing all required
quality control tests nor did they maintain appropriate production, storage, and distribution
records.

Because of corrective actions taken, contractor processes for providing potable and nonpotable
water were adequate as of November 2006 when internal quality control procedures and DoD
oversight were in place to provide quality assurance for the processes of water production,
production site storage, distribution, and storage at point-of-use facilities. However, military
water purification units at LSA Anaconda and Camp Ali did not perform required quality control
tests and did not maintain appropriate records of water produced, stored, and issued during the
period reviewed. Therefore, water suppliers exposed U.S. forces to unmonitored and potentially
unsafe water. Although there was no way to determine whether water provided by the
contractors and military water purification units caused disease, contractors and military units
responsible for water operations must always ensure that water provided to the forces meets all
established standards and is safe to use.




3
  Bulk water refers to potable or nonpotable water not packaged for individual use that is transported from large
storage containers (50,000 gallons) at the production site to smaller common point-of-use storage containers of
various sizes.
4
  During the audit scope (from January 2004 through December 2006) the Army updated TB MED 577. Unless
otherwise specified, all references here to TB MED 577 refer to the December 2005 version.


                                                          2
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


Results and Effect on Operations
We identified deficiencies in water operations at three contractor-operated facilities and two
military-operated facilities and in the oversight of those operations. On three occasions, the
quality of water provided by contractors, through treatment or distribution, was not processed in
accordance with field water sanitary standards as specified in the Department of Army,
Technical Bulletin (Medical) 577, “Sanitary Control and Surveillance of Field Water Supplies,”
December 15, 2005. This occurred because KBR did not implement established water quality
monitoring controls. Specifically:

    •    KBR did not perform water quality tests on the water it stored in point-of-use containers
         at Camp Ar Ramadi from October 13, 2004, to May 26, 2005.
    •    KBR improperly applied Army field water standards governing the process for
         purification wastewater disposal and source water selection at Camp Q-West from
         March 14, 2004, through February 3, 2006.
    •    KBR did not perform water quality tests on the water it stored in point-of-use containers
         at Camp Victory from November 2004 to February 2006.

Additionally, as of March 4, 2007, KBR had not established or disseminated standard emergency
response procedures to comply with contract requirements for reporting compliance violations.
Noncompliance with the established controls resulted in water of unknown quality being used for
personal hygiene by U.S. forces on Camp Ar Ramadi (approximately 7,300 personnel) and water
purification facility wastewater being used in personal hygiene units at Camp Q-West
(approximately 5,000 personnel).

During the time of our review, the military processes for providing potable and nonpotable water
did not always meet field water sanitary control and surveillance requirements as required by TB
MED 577. Specifically, operators of the military water production sites were not performing all
required quality control tests nor did they maintain appropriate production, storage, and
distribution records. This occurred because the military also did not implement established water
quality monitoring controls. Specifically:

    •    Military water purification operators at Camp Ali did not fully understand which tests
         were needed at the production site and how often to conduct them.
    •    Military water purification operators at Camp Ali and LSA Anaconda did not possess the
         Water Quality Analysis Set-Purification equipment needed to perform the required tests. 5


MNF-I water operations were deficient in the areas of oversight, quality control, recordkeeping,
and troop education. Examples include:


5
 Operator requirements include testing for water temperature, total dissolved solids, turbidity, chlorine residual, and
pH (TB MED 577, Chapter 8, paragraph 8-7. a.).


                                                          3
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


         •   MNC-I officials did not perform monthly oversight visits to all military water
             purification units as required by TB MED 577.
         •   Organizations responsible for water quality oversight – Preventive Medicine, Defense
             Contract Management Agency (DCMA), and Veterinary Services – did not
             coordinate their efforts, preventing comprehensive oversight of water supplies.
         •   Oversight entities lacked inventories of water storage containers to ensure that all
             water supplies received proper testing.
         •   Army water purification personnel at LSA Anaconda and Camp Ali did not
             consistently perform and maintain records of the quality control testing required by
             TB MED 577.
         •   Army water purification personnel at LSA Anaconda and Camp Ali did not maintain
             records of the amount of water issued, or the organizations receiving the water, as
             required by TB MED 577.
         •   The MNF-I command did not have a standard troop education procedure to inform
             U.S. forces of the proper uses of the different types of water provided in Iraq.

MNF-I officials must reduce the potential for water contamination and resultant adverse effects
by:
      • improving quality control and recordkeeping procedures at military production sites,
      • establishing coordination among oversight offices,
      • verifying that all water production and storage sites receive oversight visits, and
      • increasing troop awareness of water safety standards.

Because of corrective actions taken, contractor processes for providing potable and nonpotable
water were adequate as of November 2006. Internal quality control procedures and oversight
personnel from military preventive medicine detachments, Defense Contract Management
Agency (DCMA), and military Veterinary Services were operationally in place. The procedures
and oversight provided quality assurance for the processes of water production, production site
storage, distribution, and storage at point-of-use facilities. However, military water purification
units at LSA Anaconda and Camp Ali did not perform required quality control tests and did not
maintain appropriate records of water produced, stored, and issued. Therefore, water suppliers
exposed U.S. forces to unmonitored and potentially unsafe water. However, the military medical
databases for reportable illness and diseases showed only 26 disease non-battle injury cases 6
among the 137,000 average monthly U.S. forces in Iraq. The 26 cases included food and
waterborne diseases, including hepatitis, giardiasis, and typhoid fever. Although there was no
way to determine whether water provided by the contractors and military water purification units
caused the diseases, contractors and military units responsible for water operations must always
ensure that water provided to the forces meets all established standards and is safe to use.

On March 31, 2007, we issued six memoranda to MNF-I, MNC-I, DCMA, and The Army’s
Logistics Civil Augmentation Program (LOGCAP) officials for their action on the conditions

6
 Not all disease non-battle injury cases were reported in the military medical databases. See report section titled
“Treatment and Oversight at Camp Q-West.”


                                                          4
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


discussed in this report. See the “Command Notification and Management Action” section of
this report.

_____________________________________________________________________________

Background
Most water production sites providing water to U.S. forces in Iraq were operated by two
contractors, KBR and Oasis International Incorporated. KBR provided bulk water and Oasis
International Incorporated provided bottled water. We found no problems with the production of
bottled water by Oasis International Incorporated.

The Army’s Logistics Civil Augmentation Program provides logistical support including
housing, food, and water to U.S. forces in Iraq, Afghanistan, Kuwait, Djibouti, and Georgia. The
Army’s Operations Support Command issued a LOGCAP contract to KBR effective
December 14, 2001. The LOGCAP contract is a 10-year cost-plus-award-fee contract with 1
base year and 9 option years (2006 was the contract’s fourth option year). The LOGCAP
contract provides for services through individual contract task orders. LOGCAP contract task
orders 59 (awarded June 2003), 89 (awarded May 2005), and 139 (awarded August 2006)
included water services for the U.S. forces in Iraq during the audited period.
The LOGCAP Deputy Program Director – Iraq reported that by August 2006, the award date for
task order 139, 87 percent of the LOGCAP contract was supporting the Iraq mission.

Through the LOGCAP contract, KBR is the main provider of bulk water used in dining, medical,
and personal hygiene facilities. Oasis International Incorporated (Oasis) has a separate contract,
not under LOGCAP, issued by the Joint Contracting Command-Iraq to provide bottled drinking
water throughout Iraq.

In Iraq, the main sources for water are the Euphrates and Tigris Rivers. Water from all sources is
nonpotable until it is treated (produced), tested, and certified to meet the potable quality
standards. The water treatment facilities we visited used the reverse-osmosis purification
method. Reverse-osmosis water purification unit (ROWPU) systems were housed in moveable
containers that can be set up and operated in remote locations. At the end of the reverse-osmosis
treatment process, the water received an infusion of chlorine as a residual disinfection agent. It
was stored at the production sites for distribution and then trucked to separate point-of-use
storage containers from which it was pumped into medical, dining, or personal hygiene facilities.


        Established Standards. TB MED 577 establishes field water quality standards and
water certification processes and defines operational and oversight roles. The LOGCAP contract
requires KBR to comply with TB MED 577. It provides detailed requirements for the sanitary
control and quality surveillance of land-based field water support. The requirements are




                                                5
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


designed to ensure that field water supplies are safe. TB MED 577 provides officials with the
internal controls necessary for proper quality control and recordkeeping.

TB MED 577 requires that water used for drinking, cooking, and medical facilities must be
potable. U.S. forces use nonpotable water for other purposes including laundry and personal
hygiene (bathing, showering, shaving, and cleaning). Because exposure to harmful contaminants
in nonpotable water can occur through the eyes, nose, mouth, and open cuts and wounds, all
nonpotable water used in personal hygiene units must meet certain minimum safety standards
outlined in TB MED 577. 7 When those minimum standards are met, the Army refers to the
water as “disinfected fresh (nonpotable).”


Contractor Water Operations
We visited three KBR water production sites and one Oasis site. Oasis produced bottled
drinking water. KBR produced water in bulk (not bottled for individual use). Both of the
contractors produced and maintained potable water for human consumption and generally met
the standards as prescribed in the Army’s field water standards. 8 However, on three separate
occasions KBR did not meet the established requirements for quality monitoring and
maintenance of nonpotable water. 9 Although the water KBR produced was originally potable,
when it is distributed using trucks not certified for potable distribution, the water must be
designated as nonpotable. All nonpotable water was distributed and stored in bulk. From
November 2004 to February 2006, KBR did not perform water quality testing at point-of-use
storage containers on Camp Victory. From October 13, 2004, to May 23, 2005, KBR did not
monitor water quality at point-of-use storage containers on Camp Ar Ramadi. From
March 14, 2004, to February 3, 2006, KBR inappropriately distributed chlorinated wastewater
from its purification facility at Camp Q-West into personal hygiene facilities without informing
preventive medicine personnel. As a result, water quality within those point-of-use storage
containers may have degraded to the point of causing waterborne illnesses among U.S. forces.

       Production of Bottled Drinking Water by Oasis. MNC-I Theater-Specific
Requirements for Sanitary Control and Surveillance of Field Water Supplies (MNC-I Operations
Order 06-02, September 4, 2006) states that only bottled water is authorized for drinking in Iraq.
TB MED 577 requires Veterinary Services or Preventive Medicine to inspect and provide
monthly monitoring of the bottling facilities and water quality to ensure that the bottled water is
safe. Oasis operates six bottled-water facilities to produce drinking water for U.S. forces
throughout Iraq. We visited the facility at Camp Liberty on the Victory Base Complex in
7
  Standards for water used during personal hygiene include chlorination to at least 1 mg/L chlorine residual (TB
MED 577, Chapter 8, paragraph 8-13 b. and Table 3-1).
8
  TB MED 577, prescribes standards for drinking water as well as for water used for personal hygiene (Table B-2
and Chapter 8 paragraph 8-13, b, (1))
9
  Quality monitoring included testing water at all storage facilities for proper chlorination levels [LOGCAP contract
quality control requirements; TB MED 577 Dec 05, paragraphs 8-7 a, 8-13 g., paragraphs 9-7 b., 9-8, Table B-3; and
TB MED 577 Mar 86, paragraphs 1-4 g (4) (5), i (2), j (2), and 8-10 a (1)].


                                                         6
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


Baghdad. We observed its operations and reviewed the preventive medicine oversight records
for December 27, 2005, through December 2, 2006. The Oasis bottled water production facility
at Camp Liberty operated in accordance with the applicable quality control and oversight
procedures.

        Production, Distribution, and Storage of Bulk Water by KBR. The three KBR sites
we visited started producing bulk water for U.S. forces on January 31, 2004 (Camp Q-West); on
October 30, 2004 (Camp Victory); and on May 23, 2005 (Camp Ar Ramadi). We reviewed KBR
records of test results 10 for the first full month that each site started producing water and for
November 2006. At all three sites, KBR potable and nonpotable water operations generally met
the standards for field water quality because of an emphasis by MNF-I and MNC-I commands
and LOGCAP management to produce all water at the potable quality level. KBR also
emphasized hourly testing during the production process and daily testing of water stored at
production and point-of-use storage containers. Additionally, KBR set up quality control
laboratories at its water production sites.

During the audit site visits, we observed that KBR effectively produced, distributed, stored, and
maintained potable water in bulk for use in dining and medical facilities according to approved
potable water standards. KBR also produced potable water for shower and latrine units,
exceeding the TB MED 577 minimum quality level of “disinfected fresh (nonpotable)” 11 . Even
though treatment procedures produced potable water, water officials conspicuously posted signs
at personal hygiene facilities stating, “Nonpotable Water, Do Not Drink.” The postings were
appropriate because, according to oversight officials, not all distribution trucks and storage
containers were certified and maintained at the potable level.

The LOGCAP contract required KBR to implement quality control procedures that included
conducting periodic (hourly and daily) tests to maintain the required quality during production,
distribution, and storage (production and point-of-use). As of January 30, 2007, KBR had
established and were conducting daily tests at 413 point-of-use testing locations at the three
campsites we visited.

        Treatment and Testing at Camp Victory. At Camp Victory, KBR did not perform
water quality tests at point-of-use storage containers from November 2004 to February 2006.
KBR began distributing water on November 2, 2004, and, therefore, was contractually
responsible for performing those tests. During that period, military preventive medicine
personnel conducted monthly oversight tests at Camp Victory point-of-use storage containers.
Test results showed that the quality of water met Army field water standards. On February 11,
2006, the MNC-I Chief of Preventive Medicine issued a memorandum, “Clarification of
Specifications for Potable Water Production and Testing in Iraq,” requiring daily testing at
point-of-use water storage containers. Since the issuance of that memorandum, KBR performed
the required testing at Camp Victory.
10
   KBR records included hourly and daily production, distribution, and storage tests of equipment settings and water
quality readings (pH and Free Available Chlorine levels).
11
   See section titled “Established Standards” under “Background” in this report.


                                                         7
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)



        Treatment and Testing at Camp Ar Ramadi. Water operations at Camp Ar Ramadi
supported approximately 7,300 personnel. The quality of water produced, distributed, and stored
there from October 13, 2004, to May 23, 2005, is unknown. This occurred because contractor
and military quality control operations –testing, recordkeeping, and oversight –were not
accomplished in accordance with the LOGCAP contract (Task Order 59, Modification 14) or
with TB MED 577. The standards require water quality testing at production, distribution, and
point-of-use storage containers. 12 Although Army quartermaster company detachments
produced the water for the camp during that period, KBR distributed it. According to the DCMA
Theater Administrative Contracting Officer (ACO) for LOGCAP-Iraq, the contract required
KBR to monitor and maintain the quality of water it distributed to meet the established quality
standards. Specifically, the ACO stated that the government’s expectations were for KBR to
inspect and maintain distribution and storage tanks, chlorinate the water supplies, and ensure
proper levels of chlorine residual. Although the point-of-use storage containers were not
specifically called out as part of the service, the water distribution and point-of-use storage
containers were integral to the water works systems (including on-site storage as needed) that the
contract required KBR to provide, install, operate, and maintain in accordance with applicable
Army regulations.

According to KBR officials, KBR began distributing water at Camp Ar Ramadi on October 13,
2004, but did not begin water treatment and quality monitoring until May 23, 2005. KBR
managers stated that this occurred because KBR was awaiting delivery and setup of its
purification equipment. The lack of water quality monitoring and maintenance increased the risk
of exposure to potentially unsafe water. Upon receipt of its purification equipment, KBR
established an additional production site independent of the military production site. The
military production site continued its operations and then became known as the Camp Ali site,
while the new KBR site was referred to as the Camp Ar Ramadi, B-4 site.

       Survey of U.S. Forces at Ar Ramadi. We interviewed an unbiased sample of 251 U.S.
Military Service members regarding their experiences and observations while using the water
supplied to them during their deployment to Ar Ramadi. The Army Soldier Record Data Center
in Alexandria, Virginia, provided a list of 7,225 Military Service members that were deployed to
Ar Ramadi during the period October 1, 2004, through May 31, 2005. We interviewed service
members from all branches of service from the list based upon their contact availability. Of the
251 service members interviewed 13 :

             •   45 percent (112 of 251) said that the water supplied to them for personal hygiene
                 was discolored or had an unusual odor,

12
   Testing requirements include hourly during water production, daily at production and point-of-use storage, at
distribution, and monthly oversight surveillance [TB MED 577, Dec 05, Chapter 8, paragraphs 8-7 a., 8-13 g., and
Table B-3 and Chapter 9, paragraphs 9-7 b., 9-8.; TB MED 577, Mar 86, paragraphs 1-4 g (4) (5), i (2), j (2), and
8-10 a (1)].
13
   Survey answers are not mutually exclusive and will not total 251 (100 percent). Responders could answer
affirmatively to none, one, or multiple categories.


                                                         8
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


            •    10 percent (24 of 251) said they reported their water quality concerns to command
                 authorities and 46 percent (11of 24) said they received a command response to
                 their reported concerns,
            •    22 percent (56 of 251) said no signs were posted at the hygiene facilities to
                 identify the water as nonpotable, and
            •    4 percent (10 of 251) said they experienced a water related medical problem. 14

                             Figure 1. Survey of U.S. Forces Stationed in Ar Ramadi
                                                         October 2004 - May 2005


                     Survey Question


                Hygiene Water Was Discolored or Had
                an Unusual Odor                                                     45%



                Personnel Reported Water Quality
                Concerns to Command                           10%




                Nonpotable Water Signs Not Posted In                    22%
                Hygiene Facility




                Personnel Stated They Had a Water        4%
                Related Medical Problem



                                                    0%          20%           40%         60%   80%   100%
                                                                                 % of 251
                                                                               Interviewed


Although the interview results seemingly corroborate allegations that unsafe water was supplied
to U.S forces at Ar Ramadi, the physical observations alone do not delineate water quality.
Water quality standards described in TB MED 577 (1986), Chapter 2, paragraphs 2-2(a) and (b)
state that potable water may or may not be palatable. Palatable water is pleasing in appearance
and taste, is significantly free from color, turbidity, taste and odor, and is cool and aerated. Yet
palatable water may not be potable. Thus, the determining factor for the quality level of potable
and nonpotable water used for personal hygiene is not based on the visual appearance and odor
of the water. TB MED 577 quality standards for nonpotable water use only one measurement in
its determination of whether the water is safe for hygiene use – whether the water is chlorinated
to at least 1-milligrams-per-liter of chlorine residual. Additionally, according to medical
specialists, medical diagnosis of an illness related to waterborne pathogens could also be
attributed to foodborne pathogens.


14
  Medical problems were taken from Service member statements only and not taken from the disease non-battle
injury medical database records.


                                                                    9
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


Because water quality tests were not performed and disinfection residual levels were not
monitored and maintained at point-of-use storage containers during the period surveyed, the
potential for water quality degradation existed and the risk of contamination was present.
However, auditors found no supporting records to confirm or deny that actual contamination
occurred. The survey results are the perceptions of the water users who attributed their concerns
to water quality, but they do not document actual water quality test results.

         Treatment and Oversight at Camp Q-West. On February 1, 2006, military preventive
medicine personnel discovered that KBR was using chlorinated wastewater from its ROWPU to
fill personal hygiene facilities at Camp Q-West. KBR distributed the chlorinated wastewater
from March 14, 2004, through February 3, 2006, to a camp population of approximately 5,000
personnel. KBR did not monitor or record the quality of water at point-of-use containers before
April 2006, even though the LOGCAP contract required the company to do so. KBR
inappropriately distributed the ROWPU wastewater 15 directly into shower and latrine point-of-
use containers without informing military preventive medicine oversight officials. KBR officials
stated that they did this because of frequent source water shortages at Camp Q-West. 16 KBR
also misapplied TB MED 577 governing the selection of water sources and the management of
production wastewater. The wastewater is a concentrated byproduct of the water purification
process and its composition is different from that of the original source water. The contaminants
present in the wastewater include most of the contaminants that are in the source water, but they
are at different concentrations. The suspended solids concentration is less than that of the raw
water because the ROWPU pretreatment filtration system removes them. However, the
dissolved solids, alkalinity, metals, and chloride concentrations are as much as two times their
respective concentrations than in the source water, since pre-reverse-osmosis filtration does not
remove them and the ROWPUs membranes reject them. 17 This “new source” water should have
undergone an analysis by medical personnel before its use. TB MED 577 required wastewater to
be disposed of 25 yards downstream of the raw water intake and gave no option for its reuse.18
KBR did not inform preventive medicine personnel before using the wastewater. As a result,
preventive medicine could not inspect or test the water for suitability and verify that it would not
impair the health of U.S. forces. To complicate matters, before January 20, 2006, preventive
medicine personnel did not perform the required periodic 19 water quality monitoring at
point-of-use storage. Preventive medicine management officials gave several reasons for not
performing the oversight: a shortage of personnel caused by sending staff to another unit that did
not have its own preventive medicine support; a lack of transportation; the number of camps
within the unit’s area of responsibility; and competing medical priorities. Oversight officials


15
   ROWPU wastewater was also referred to as brine or concentrate.
16
   According to the Camp Q-West personnel, the water source for the camp is provided through a 21-mile pipeline
network from the Tigris River. The pipeline is susceptible to power equipment failures, unauthorized access taps,
sabotage, breaks, and frequent leaks. The pumping station, electrical pumps, and pipeline are 30 years old and
frequently fail often leaving the camp with limited or no water.
17
   TB MED 577, December 2005, Chapter 11, paragraph 11-2 c.
18
   TB MED 577, March 1986, Chapter 5, paragraph 5-5 b.
19
   TB MED 577, March 1986, Chapter 8, paragraph 8-6 a. and 8-7.


                                                        10
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


were therefore unaware of the pending water quality risks that existed at Camp Q-West before
February 1, 2006.

From October 2005 through June 2006, the local brigade medical sick-call records showed 38
cases 20 that an attending medical official said could be attributed to water, such as skin
abscesses, cellulitis, skin infections, and diarrhea. Of the 38 cases, 24 (or 63 percent) were
diagnosed in January and February 2006. The following figure illustrates an increase in medical
problems during that period.
                                        Figure 2. Q-West Medical Cases
                                            October 2005 - June 2006
                18
                16
                14
                12
      Number of 10
        Cases    8
                 6
                 4
                 2
                 0
                            Oct Nov Dec Jan Feb Mar Apr May Jun
                                                          Months


On January 20, 2006, the local medical personnel informed MNC-I Preventive Medicine
personnel of an increase in bacterial infections, causing preventive medicine to begin testing
water at point-of-use storage containers. On February 1, 2006, preventive medicine determined
that KBR had used ROWPU wastewater to supply personal hygiene facilities. The discovery
resulted in KBR superchlorinating 21 the water storage tanks and redirecting the wastewater
output lines. In addition, preventive medicine increased its oversight monitoring of water quality
at point-of-use storage containers.

        Emergency Response Procedures. KBR did not have standard emergency response
procedures to execute if water became unsafe. We documented three examples of potential
water quality issues: (1) a false positive reading for mustard gas at Kalsu in October 2006, (2)
the direct use of treatment wastewater in personal hygiene facilities at Camp Q-West, and (3)

20
   The attending physician stated that these cases were from the local brigade surgeon sick-call clinic and not
reported into the disease non-battle injury databases through the camp troop medical clinic.
21
   Superchlorinating is the sanitizing of a water container (tank or truck) using water with a 100 mg-per-liter
chlorine concentration for at least one hour.


                                                          11
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


uncertainty about whether the water at Camp Ar Ramadi was properly chlorinated and
maintained at the required quality level. 22 Although KBR officials quickly reported the Kalsu
reading to appropriate military officials, KBR did not notify the military of the other two
conditions. As of March 4, 2007, KBR had not established standard operating procedures to
implement the contract requirement to report violations of water quality compliance. We
informed KBR officials of this weakness during the audit, and the company subsequently
prepared internal operating procedures to correct the deficiency We asked LOGCAP officials,
DCMA, and MNF-I to review the procedures for adequacy. 23


Military Water Operations
MNC–I, a subcommand of MNF-I, performs the operational command and control of military
units in Iraq. Military water purification detachments produce, store, and monitor the quality of
bulk potable water at production sites. We visited two military water production sites, Camp Ali
in Ar Ramadi and LSA Anaconda in Balad. We observed their ongoing operations and reviewed
their production and storage records. The detachments operating the military water production
sites did not perform all required quality control tests and did not maintain appropriate records of
water produced, stored, and issued. In addition, MNF-I lacked standard education procedures for
informing U.S. forces of the proper use of water in Iraq.

       Quality Control Testing and Recordkeeping at LSA Anaconda and Camp Ali. Army
quartermaster company detachments did not consistently perform water quality testing at LSA
Anaconda (from October through December 2006) or at Camp Ali (from September through
December 2006) as required by TB MED 577. Camp Ali operators did not have the Water
Quality Analysis Set-Purification equipment needed to perform the required tests for
temperature, total dissolved solids, turbidity, chlorine residual, and pH levels. 24 Also, Camp Ali
operators did not fully understand the requirements for hourly quality control checks during
production, daily tests of water stored at the production site, and a test for potability before issue.
By not complying with the required quality control checks, the operators risked exposing
U.S. forces to unsafe water.

Army quartermaster company detachments and local preventive medicine personnel did not
maintain records of water quality tests for production, storage, distribution, and oversight in
accordance with TB MED 577 requirements. 25 For example, from September through December
2006, the Army quartermaster company detachments at Camp Ali did not maintain records to
show the results of water quality tests (hourly tests of water produced, daily tests of water stored
22
   See earlier discussions of Q-West and Ar Ramadi.
23
   See Management Notification section.
24
   TB MED 577, Chapter 8, paragraph 8-7 a.
25
   TB MED 577, required water production personnel to maintain records of equipment settings; the chlorine
residual and the pH of treated water; chemical usage; the amount of water issued; and the units that were issued
water (Chapter 8, paragraphs 8-7 and 8-14). Preventive medicine personnel should retain copies of inspections and
water test results (Chapter 8, paragraph 8-3 b.).


                                                       12
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


at the production site, tests of water issued), the amount of water issued, or the organizations
receiving water. The quartermaster company detachment at LSA Anaconda had incomplete
records for its operations from October through December 2006. The records did not show the
results of hourly quality tests required during water production, the amount of water issued, or
the organizations receiving water. Similarly, the preventive medicine detachments at Camp Ar
Ramadi and LSA Anaconda did not maintain the required records to validate the performance of
oversight for water production and storage sites in their areas of responsibility. Additionally, the
water production and oversight personnel did not maintain on-site records from previous units’
operations. Although there was no requirement to keep past records on-site, future water
operations can benefit by water purification and oversight personnel having immediate access to
detailed water quality records. In our opinion, access to historical data can aid in water quality
analysis and provide needed information in resolving water quality issues.

        Troop Education. MNF-I lacked a standard education procedure to inform U.S. forces
of the proper uses of water provided in Iraq. MNF-I officials stated that personnel coming into
theater received a briefing on the uses of potable and nonpotable water – specifically, that the
only approved drinking water in theater is bottled water. We judgmentally selected
10 individuals from 4 different units and asked whether they had received a briefing regarding
water use. The individuals had deployed as individual augmentees or as members of a unit.
Their ranks ranged from staff sergeant to colonel, and they were assigned to an infantry
battalion, a quartermaster company, support command headquarters, and the staff of MNF-I.
Only 1 of the 10 asked had received a briefing on water uses, and that was at a voluntary
newcomers’ briefing conducted in May 2006 at Camp Victory by the previous Corps command.




                                                 13
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


Oversight of Water Quality
Oversight of the military units did not occur as required. Specifically, preventive medicine
officials did not perform oversight visits to all water supply operations. Oversight officials from
the MNF-I Office of Resources and Sustainment, MNC-I Preventive Medicine and its
detachments, DCMA Iraq/Afghanistan, LOGCAP, and KBR lacked comprehensive inventories
of water storage containers, without which they were unaware of all water storage sites, and their
locations, to visit. Additionally, the organizations did not coordinate their oversight efforts. TB
MED 577 requires command surgeons to oversee the implementation of preventive medicine
instructions and procedures to achieve the established water quality standards. Preventive
medicine personnel are responsible for providing oversight of field water operations and for
preventing waterborne illness and disease. DCMA is responsible for oversight of the contractor
operations. We reviewed MNC-I Preventive Medicine records of the water operation sites that
we visited. Preventive medicine personnel provided monthly oversight visits to the three KBR
water operation sites that we visited. However, they did not provide consistent oversight visits to
the military water operation sites.

        Oversight Coordination. Oversight of water systems in Iraq is fragmented because both
military and civilian organizations purify water, and several organizations are responsible for
monitoring its quality. DCMA, Military Preventive Medicine, KBR, and Veterinary Services are
the organizations responsible for conducting oversight activities, but they do not coordinate their
actions. Within those organizations, we observed a lack of awareness of problems associated
with water purification. For example, the required daily water quality monitoring at point-of-use
containers was not completed at Camp Ar Ramadi because of a false assumption that individual
unit field sanitation teams were performing the tests. TB MED 577 states that individual military
unit field sanitation teams are responsible for checking and maintaining the quality of bulk water
supplies that they receive for their units. However, in Iraq, individual military units do not
receive bulk water deliveries. Instead, KBR delivers the bulk water to common point-of-use
storage containers and is therefore responsible for testing and maintaining the quality of that
water. Additionally, preventive medicine personnel did not always accomplish the required
monthly oversight visits and water quality tests because of stated personnel shortages. The
oversight organizations knew of their own internal operations and difficulties but were not aware
of problems that other organizations were experiencing or of the effect those problems had on
the quality of water provided to U.S. forces.

        Oversight Visits. The preventive medicine personnel responsible for oversight visits to
the military water production site at Camp Ali could not provide documentation supporting
oversight visits from June through December 2006. Preventive medicine detachments are
responsible for providing oversight of all field water supply operations. Their oversight
responsibilities include monthly inspections of all water production sites and all storage
containers. The monthly inspections should include tests of water during production and water
stored at all locations to ensure that chlorine residual levels are appropriate. The lack of
documentation existed because the MNC–I Preventive Medicine personnel did not perform



                                                14
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


monthly oversight visits to the military operated water purification unit at Camp Ali as required
by TB MED 577. 26

Preventive medicine officials said they were unable to accomplish all water quality oversight
because of personnel shortages. At Camp Ar Ramadi, the manning document for the Preventive
medicine section 27 authorized two people to complete all preventive medicine duties for a
brigade. However, the Camp Ar Ramadi preventive medicine section was assigned to oversee
the Marine Expeditionary Force-West, a division-sized area of operations (three times the size
that the manning document plans for). According to the preventive medicine officer on-site,
accomplishing those duties would require at least four people. Faced with what they perceived
as a personnel shortage, preventive medicine managers decided not to perform visits to the Camp
Ali military water production site. Additionally, the preventive medicine officials did not fully
understand that their section had oversight authority and responsibility for U.S. water operations
inside an Iraqi camp. TB MED 577 requires oversight of U.S. water production sites regardless
of their location. Conducting monthly oversight visits to all military operated water purification
units would help prevent poor water quality and associated nonbattle injuries. Additionally,
preventive medicine personnel did not know the number of military operated water purification
units in Iraq and their locations. This lack of knowledge prevented proper operational control of
water quality testing throughout Iraq.

         Water Storage Containers. Officials within the MNF-I Office of Resources and
Sustainment, MNC-I Preventive Medicine, the DCMA-Iraq, LOGCAP-Iraq, and KBR were
initially unable to provide an inventory of all water storage containers and their locations in Iraq.
The lack of maintaining a storage container inventory prevented operational control of all water
quality testing throughout Iraq. For example, preventive medicine officials were unable to
determine whether the water in all water storage containers had received appropriate monitoring
and testing. An accurate inventory of storage containers would help officials schedule and
perform the required daily and monthly water quality testing.




26
  TB MED 577, Chapter 8, paragraph 8-3 a.
27
  The Army uses a Table of Organization and Equipment to prescribe the authorized levels of personnel and
equipment for each section.


                                                       15
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


Notification to Command and Management Actions
On March 31, 2007, we issued six action memoranda to MNF-I, MNC-I, DCMA, and LOGCAP
officials for their action on the conditions discussed in this report. Specifically, the memoranda
discussed the deficiencies resulting from the lack of:

       •   oversight and quality control for the military water purification units,
       •   coordinated oversight by agencies responsible for ensuring water quality,
       •   records showing the results of required tests,
       •   information dissemination to troops concerning the proper use of water,
       •   oversight for water storage containers, and
       •   contractor emergency response procedures for alerting the command of unsafe water.

We requested that the officials take action to correct the identified deficiencies. On May 14,
2007, MNF-I officials responded stating they were applying the following corrective actions:

       •   transferring all military water production and storage operations to LOGCAP not later
           than July 1, 2007;
       •   establishing a water quality board consisting of officials from MNF-I, MNC-I,
           DCMA, Preventive Medicine, LOGCAP, and Joint Contracting Command-Iraq to
           meet quarterly and oversee the quality of water operations;
       •   assessing the ability of preventive medicine sections to conduct all required testing,
           and augmenting military units with LOGCAP contractors where needed;
       •   updating MNC-I Operations Order 06-02, Annex Q, Appendix 2, Tab D, Standard
           Operating Procedures for “Iraqi Theater-Specific Requirements for Sanitary Control
           and Surveillance of Field Water Supplies,” to emphasize the standards for types and
           uses of water in Iraq and the controls in place to ensure testing and recordkeeping
           requirements are met;
       •   requiring all Base Mayor Offices to ensure every newcomer receives standard
           information concerning water consumption in Iraq;
       •   publishing an order for all Base Mayors to provide a list of all water containers to
           MNC-I Preventive Medicine officials. Preventive medicine officials will ensure
           testing of military water containers, and LOGCAP officials will ensure testing of its
           containers, all in accordance with TB MED 577;
       •   issuing a LOGCAP contractor operating procedure manual to water production
           operators that designates procedures to report water quality lapses.




                                                16
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


Management Comments on the Findings
and Audit Response

U.S. Central Command (USCENTCOM), MNF-I, MNC-I, and DCMA provided comments to a
draft report.

USCENTCOM provided coordinated responses from MNF-I and MNC-I related to the
recommendations addressed to their commands – see the “Recommendations, Management
Comments, and Audit Response” section of this report. USCENTCOM concurred with the
responses provided by MNF-I and MNC-I. MNF-I and MNC-I concurred or partially concurred
with the information provided in the draft report. Even though MNF-I and MNC-I delineated
their concurrence and partial concurrence to the report’s recommendations, their provided
comments and command actions taken coincide with the conditions as stated in this report. The
USCENTCOM, MNF-I and MNC-I responses are included as Attachment 2 of this report.

DCMA provided the following comments on the draft report findings. DCMA’s response is
included as Attachment 3 of this report.

Contractor Water Operations and Quality Oversight. DCMA concurred and stated that the
DCMA Iraq/Afghanistan Commander implemented five new procedures that integrate quality
assurance in various aspects of KBR’s water production and distribution process. Specifically,
the new procedures include:
    • increased surveillance by the Quality Assurance Representatives (QARs) with a
       minimum of monthly audit visits at each KBR water production site.
    • development of two comprehensive checklists to enhance DCMA audit capabilities, one
       focused on contractual oversight of the Task Orders and Statement of Work, the second
       focused on the regulatory required inspections and procedures for ensuring sanitary
       control and surveillance of field water supplies.
    • concentrated efforts on data analysis along with a new theater-wide database to identify
       deficiencies and possible trends.
    • increased number of Contract Officer Representatives to assist in the oversight of
       production and testing.
    • active participation in the monthly Iraqi Theater of Operations Water Quality Board.


Recommendations, Management Comments, and
Audit Response
At the conclusion of the audit fieldwork in Iraq, we presented the following recommendations by
means of six individual memoranda to functional staff elements of MNF-I, MNC-I, LOGCAP
Army Sustainment Command, and the DCMA Iraq/Afghanistan commander on March 31, 2007


                                              17
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


– see the “Notification to Command and Management Actions” section of this report. We
received requested responses to a draft report from USCENTCOM, MNF-I, MNC-I, and DCMA
regarding each recommendation with comments on corrective actions completed.

1. We recommend that the Commander, Multinational Force–Iraq:

       a. Establish a water board made up of each of the major organizations responsible
for purification and oversight of water (Defense Contract Management Agency, Army
Sustainment Command Logistics Civil Augmentation Program, Multinational Corps - Iraq
Preventive Medicine, Veterinary Services, and Field Sanitation Teams’ representatives) to
serve as a forum for identifying and resolving problems as they arise and ensure proper
oversight is accomplished.

       b. Provide all in-bound military and civilian personnel written information that
discusses the proper use of potable and nonpotable water.

MNF-I and MNC-I Comments. MNF-I and MNC-I concurred with Recommendation 1.a. The
MNC/F-I Surgeon stated that a Water Quality Board has been established that meets quarterly
and more frequently as needed. The board’s objectives are to:
   • assist in the development policies and procedures for water quality operations,
   • provide a forum of discussion on current water quality operational issues, and
   • evaluate and report the quality of water operation in the Iraq Theater of Operations.

The MNC/F-I Surgeon also stated that the Water Quality Board has met six times from
April 2007 through January 2008 and members of the board include:
    • MNC-I Force Health Protection Officer (chairperson),
    • DCMA Lead Administrative Contracting Officer,
    • DCMA Lead Quality Assurance Representative,
    • LOGCAP Representative,
    • KBR Contractor Representative,
    • MNC-I Logistics Representative (C4 supply and Services),
    • Task Force Medical Command Representative,
    • Joint Contracting Command Iraq Representative, and
    • U.S. Army Corps of Engineers Representative.

MNF-I partially concurred with Recommendation 1.b. stating that “Mayor’s cells” are
responsible to brief newcomers on what to do in their deployed environment, including providing
information concerning the use of water. Additionally, support contractors are required to post
signs at all locations where they provide water that states the water is nonpotable.

Audit Response. MNF-I and MNC-I did not delineate its partial concurrence with
Recommendation 1.b.; however, because MNF-I commands and controls all operations in Iraq,
base Mayor cells included, the MNF-I stated actions meet the intent of the recommendation.


                                              18
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)



DCMA Comments. DCMA concurred with Recommendation 1.a. and stated it has taken steps
to ensure the goal of the recommendation is accomplished. DCMA representatives are active
participants on the MNC-I Water Quality Board.

2. We recommend that the Commander, Multinational Corps–Iraq:

       a. Develop and maintain a comprehensive inventory of military water purification
units operating in Iraq that includes:

          (i) the military preventive medicine detachment and element responsible for
conducting oversight and quality control for each purification site,

           (ii) the date when the oversight official conducted the latest oversight visit at
each location,

           (iii) all water quality tests performed during the oversight visit and the results.

MNC-I Comments. MNC-I partially concurred with Recommendation 2.a. stating that although
there is no regulatory requirement to maintain a current listing of all military-operated ROWPUs
in Iraq, the MNC-I C4 maintains a current listing of them. The MNF-I and MNC-I command
surgeon stated that copies of preventive medicine monthly oversight visits are archived at the
MNC-I Force Health Protection office, sent to the U.S. Army Center for Health Promotion and
Preventive Medicine, as well as stored on Task Force computer web portals and share-points.

Audit Response. The MNC-I response and actions meet the intent of the recommendation.

       b. Develop and implement a plan of action with milestones for conducting oversight
and quality control visits by the appropriate oversight personnel on a monthly basis as
required by TB MED 577 for all water production and treatment sites.

MNC-I Comments. MNC-I concurred and stated that on May 7, 2007, it published procedures
for Iraqi Theater-specific Requirements for Sanitary Control and Surveillance of Field Water
Supplies in response to the audit findings. It republished the procedures on November 30, 2007,
as Tab H, Appendix 6, Annex Q, to MNC-I SOP 08-01. MNC-I also provided a status of
preventive medicine oversight efforts listing medical detachments, the water operation sites they
visit, inspection plans, and their last inspection dates.

       c. Develop and maintain a comprehensive list of all contractor and military storage
containers throughout Iraq to provide accountability for 100 percent quality oversight of
all water storage throughout Iraq.

MNC-I Comments. MNC-I partially concurred stating there is no requirement to maintain a
central listing of all storage containers; however, through a Letter of Technical Direction it


                                               19
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)


requested that KBR provide a monthly inventory of all storage containers and ablution clusters to
the MNC-I Force Health Protection office. The monthly inventory will be distributed to ensure
oversight is conducted in accordance with the TB Med 577 and the MNC-I SOP.

Audit Response. The MNF-I and MNC-I response and actions meet the intent of the
recommendation.

       d. Formally publish instructions requiring all water purification operations and
their associated preventive medicine oversight officials to:

             (i) produce and maintain all production, distribution, testing, and oversight
       records in accordance with TB MED 577;

              (ii) transfer ownership of all water records to their replacement units when
       they leave the theater; and

              (iii) maintain an archive of water records at operational sites for use in
       water quality analysis and resolving water quality issues for the duration of the
       military operations.

MNF-I and MNC-I Comments. MNC-I partially concurred stating it published an MNC-I SOP
for Theater-specific Requirements for Sanitary Control and Surveillance of Field Water Supplies
directing all preventive medicine officials to comply with TB Med 577 testing and recordkeeping
requirements. The command surgeon’s response also stated that the MNC-I Force Health
Protection office will maintain archived records of all preventive medicine oversight visits to
both military and contractor water production sites. The reports will be forwarded weekly to the
Occupational and Environmental Health Surveillance (OEHS) data repository maintained by the
U.S. Army Center for Health Promotion and Preventive Medicine. The reports will also be
available to incoming units by web access of the OEHS data repository or the MNC-I Surgeon’s
computer Sharepoint Portal in theater.

Audit Response. The MNC-I response and actions meet the intent of the recommendation.

    3. We recommend that the Commander, Defense Contract Management Agency-Iraq
establish a process to collaborate and share information and results from water operation
oversight efforts with the MNC–I Command Surgeon, Preventive Medicine.

DCMA Comments. DCMA concurred with Recommendation 3. and stated it will establish a
process to collaborate and share information with the MNC-I Command Surgeon Preventive
Medicine.




                                               20
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                             Attachment 1
                                               Page 1 of 2

Congressional Request Letter
                                                             Final Report
                                                              Reference




                                                             Page 1




                                        22
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                             Attachment 1
                                               Page 2 of 2




                                        23
Date: March7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                             Attachment 2
                                               Page 1 of 6

Command Comments (USCENTCOM)
                                                             Final Report
                                                              Reference




                                                             Page 17




                                                             Attachment
                                                             Tabs B, C,
                                                             and D were
                                                             omitted
                                                             because of
                                                             length.
                                                             Copies can
                                                             be provided
                                                             upon request




                                        24
               Date: March 7, 2008
               Report No. D-2008-060
                (Project No.: D2006-D000LQ-0254.000)

                                                            Attachment 2
                                                              Page 2 of 6

               Command Comments (MNC-I and MNF-I),
               Tab A to USCENTCOM
Final Report
 Reference




Page 18




Page 18




                                                       25
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                             Attachment 2
                                               Page 3 of 6

                                                             Final Report
                                                              Reference




                                                             Page 19




                                        26
               Date: March 7, 2008
               Report No. D-2008-060
                (Project No.: D2006-D000LQ-0254.000)

                                                            Attachment 2
                                                              Page 4 of 6

Final Report
 Reference




Page 19




                                                       27
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                             Attachment 2
                                               Page 5 of 6

                                                             Final Report
                                                              Reference




                                                             Pages 19
                                                             and 20




                                        28
               Date: March 7, 2008
               Report No. D-2008-060
                (Project No.: D2006-D000LQ-0254.000)

                                                            Attachment 2
                                                              Page 6 of 6

Final Report
 Reference




Page 20




Page 20




                                                       29
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                             Attachment 3
                                               Page 1 of 3

Command Comments (DCMA)




                                        30
               Date: March 7, 2008
               Report No. D-2008-060
                (Project No.: D2006-D000LQ-0254.000)

                                                            Attachment 3
                                                              Page 2 of 3

Final Report
 Reference




Pages 17
and 19




                                                       31
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                             Attachment 3
                                               Page 3 of 3

                                                             Final Report
                                                              Reference




                                                             Page 20




                                        32
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                                                        Attachment 4
                                                                          Page 1 of 2

Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Personnel and Readiness
  Assistant Secretary of Defense for Health Affairs
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
  Director, Defense Procurement and Acquisition Policy

Joint Staff
Director, Joint Staff

Department of the Army
Army Inspector General
Auditor General, Department of the Army

Department of the Navy
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Commands
Commander U.S. Central Command
  Commander, Multi-National Forces-Iraq
  Commander, Multi-National Corps-Iraq
  Commander, Joint Contracting Command-Iraq/Afghanistan




                                          33
Date: March 7, 2008
Report No. D-2008-060
 (Project No.: D2006-D000LQ-0254.000)

                                                                          Attachment 4
                                                                            Page 2 of 2

Other Defense Organizations
Director, Defense Contract Management Agency
  Commander, Defense Contract Management Agency Iraq/Afghanistan
Director, Defense Contract Audit Agency
Director Defense Logistics Agency

Congressional Committees and Subcommittees, Chairman and Ranking
Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement Committee
  on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs Committee on Oversight and
  Government Reform




                                          34
